                                                                             Report No. DODIG-2015-003



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              OCTOBER 2, 2014




                     Independent Auditor’s Report on
                     the Attestation of the Existence,
                     Completeness, Rights and
                     Obligations, and Presentation
                     and Disclosure of the Department
                     of the Navy’s Afloat Ordnance




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500



                                                                                 October 2, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
               	 FINANCIAL OFFICER, DOD
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL MANAGEMENT
               	 AND COMPTROLLER).



SUBJECT:	 Independent Auditor’s Report on the Attestation of the Existence, Completeness,
          Rights and Obligations, and Presentation and Disclosure of the Department
          of the Navy’s Afloat Ordnance (Report No. DODIG-2015-003)

We are providing this report for information and use. No written response to this report
is required. Therefore, we are publishing this report in final form.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945.




	                                                 Lorin T. Venable, CPA
	                                                 Assistant Inspector General
	                                                 Financial Management and Reporting




                                                                                     Report No. DODIG-2015-003│ i
                 Contents
                 Audit Opinion___________________________________________________________________________1
                 Internal Controls______________________________________________________________________2
                 Appendixes
                 Appendix A_______________________________________________________________________________________6
                      Unmatched Asset Results by Ship (Existence)_ ___________________________________________6
                      Unmatched Asset Results by Ship (Completeness)_______________________________________7
                 Appendix B_______________________________________________________________________________________8
                      Other Matters of Concern by Ship (Existence)____________________________________________8
                      Other Matters of Concern by Ship (Completeness)_______________________________________9




ii │ DODIG-2015-003
                                                 INSPECTOR GENERAL
                                               DEPARTMENT OF DEFENSE
                                               4800 MARK CENTER DRIVE
                                            ALEXANDRIA, VIRGINIA 22350-1500



                                                                                                                     October 2, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
               	 FINANCIAL OFFICER, DOD
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL MANAGEMENT
               	 AND COMPTROLLER).

SUBJECT:	 Independent Auditor’s Report on the Attestation of the Existence, Completeness,
          Rights and Obligations, and Presentation and Disclosure of the Department
          of the Navy’s Afloat Ordnance (Report No. DODIG-2015-003)


Audit Opinion
We have examined management’s assertion of audit readiness1 for the existence, completeness,
rights and obligations, and presentation and disclosure of the Department of the Navy’s
(DON’s)2 afloat ordnance as of March 31, 2014. DON asserted audit readiness of the existence,
completeness, rights and obligations, and presentation and disclosure of DON ordnance
excluding that in the custody of the Army, on February 28, 2013. This examination is the second
in a series of examinations of DON ordnance.3 DON management is responsible for its
assertion of audit readiness. Our responsibility is to express an opinion on the assertion based
on our examination.

We conducted our examination in accordance with attestation standards established by
the American Institute of Certified Public Accountants and generally accepted government
auditing standards as stated in the Government Accountability Office’s “Government Auditing
Standards,” December 2011. Those standards require examining, on a test basis, evidence
supporting the DON’s assertion of audit readiness of the existence, completeness, rights and
obligations, and presentation and disclosure of its mission-critical assets and performing other
procedures we considered necessary. We believe our examination provides a reasonable basis
for our opinion on management’s assertion.




	1	
    Audit readiness in accordance with the November 2013 DoD Financial Improvement and Audit Readiness Guidance Wave 3 Mission Critical
    Asset Existence and Completeness Audit.
	2	
    The DON includes both Navy and U.S. Marine Corps activities.
	3	
    We issued a report concerning DON’s ordnance categorized as inside the contiguous U.S. in March 2014. Ordnance categorized as outside
    the contiguous U.S. in the DON’s Ordnance Information System was excluded from this examination.




                                                                                                                                  DODIG-2015-003│ 1
           We performed our examination using information obtained from Naval Supply Systems
           Command–Global Logistics Support Ammunitions, Marine Corps Systems Command, and
           DON ships for the existence, completeness, rights and obligations, and presentation and
           disclosure of the DON afloat ordnance as of March 31, 2014. The DON Ordnance Information
           System (OIS)4 is the accountable property system of record for ordnance assets. As of
           March 31, 2014, the DON afloat ordnance universe in OIS consisted of 93,948,556 assets.
           We tested a nonstatistical sample of 584,402 assets for existence, 178,489 assets for
           completeness, and 763,476 assets for rights.5 Examples of ordnance assets tested range from
           Tomahawk cruise missiles and torpedoes to sonobuoys and gun ammunition.

           During existence and completeness testing, we selected assets from a list that included
           the ship’s entire ordnance inventory. We identified the following discrepancies by comparing
           on-hand quantities to OIS records. For existence testing, we reviewed 584,402 assets and
           identified 13,303 discrepancies. For completeness testing, we reviewed 178,489 assets and
           identified 3,567 discrepancies. See Appendix A for more detail. A discrepancy does not always
           equal missing assets but can also represent record-keeping errors. When ordnance was
           unaccounted for, Navy had procedures to research and write-off small amounts of assets such
           as gun ammunition. No larger ordnance assets, such as missiles or torpedoes, were missing.
           As a result, our testing showed that the Navy had insignificant discrepancies between assets
           verified as on-hand and the quantities recorded in OIS. Some Navy commands have corrected
           the OIS records even though the discrepancies did not affect our opinion.

           In our opinion, the DON assertion of audit readiness for the existence, completeness, rights
           and obligations, and presentation and disclosure of its afloat ordnance as of March 31, 2014, is
           stated fairly in accordance with DoD Financial Improvement and Audit Readiness Guidance
           Wave 3 Mission Critical Asset Existence and Completeness Audit.



           Internal Controls
           According to Office of Management and Budget Circular A-123, internal controls should assure
           the safeguarding of assets from waste, loss, unauthorized use, or misappropriation as well as
           assure compliance with laws and regulations. Although we can express a favorable opinion on
           the DON assertion, during our examination, we identified inadequate inventory procedures
           and insufficient internal controls.



           	 4	
               OIS is the system of record for DON’s ordnance; however some ships still use the legacy system “Retail Ordnance Logistics Management
               System.” When we use the term OIS, it collectively refers to both systems.
           	5	
               We were able to test a large quantity of assets because each piece of ordnance is tracked individually. For example, an individual bullet
               counts as one asset.




2 │ DODIG-2015-003
We observed the following matters of concern that we are bringing to management’s attention
for appropriate corrective action.

        •	 The Navy relied on the “Conventional Ordnance Stockpile Management Policies
           and Procedures,” April 2014, for inventory accountability policies and procedures,
           which require that the individual conducting the inventory not be provided the
           quantities from master records applicable to the inventory. Navy personnel referred
           to the quantity of assets on count sheets while conducting the inventory. Navy
           personnel on the USS Alaska stated they were not aware of this requirement. As a
           result, there is a greater potential for inaccurate inventory records if the quantity is
           identified in advance. For example, if the OIS-reported inventory is less than the
           physical count, personnel performing the inventory might not report the difference
           and could pilfer any unrecorded items.

        •	 We observed a lack of internal controls in the area of segregation of duties on the
           USNS Rainier. The Navy relied on “Conventional Ordnance Stockpile Management
           Policies and Procedures,” April 2014. The policy states that duties are to be divided
           among the work force so that no individual may adversely affect the accuracy and
           integrity of the inventory. In addition, the policy states that key custodians must not
           have access to modify OIS. Lastly, the policy permits a command that is unable to
           comply with the separation of duties to request a waiver or an exception. On the
           USNS Rainier, we identified the following matters of concern:

                  {{   The Assistant Cargo Mate, who had access to modify OIS, obtained
                       keys and entered the munition storage areas unescorted. Individuals
                       authorized to obtain keys are listed on an unescorted access control list,
                       and these individuals must not have access to OIS. Appropriately, the
                       Assistant Cargo Mate was not on that list, and therefore was not
                       authorized to obtain the keys. The munition storage areas contained assets
                       such as sonobuoys, bombs, and gun ammunition. The Assistant Cargo Mate
                       stated this matter of concern occurred because limited personnel were
                       available and he knew where everything was located. As a result, process
                       integrity was not maintained, and internal controls were circumvented.
                       The Navy should ensure that personnel cannot circumvent internal
                       controls for reasons of convenience.

                  {{   The Chief Mate had access to modify OIS and was authorized unescorted
                       access to munition storage areas. Additionally, the Cargo Mate was
                       appointed as the key custodian and was also authorized unescorted
                       access to munition storage areas. The Assistant Cargo Mate stated these




                                                                                             DODIG-2015-003 │ 3
                                            matter of concern occurred because of limited staffing. As a result,
                                            personnel could circumvent internal controls. The Navy should request a
                                            waiver or an exception if it is unable to properly segregate duties to comply
                                            with Navy regulations. Navy personnel stated a waiver request would be
                                            submitted by the end of August 2014.

                         •	 The USS Rushmore did not have reliable connectivity to OIS. As the accountable
                             property system of record for ordnance assets, OIS shows the balance of ordnance
                             assets that the command is accountable for maintaining. The USS Rushmore
                             obtained access to OIS in September 2013 and experienced frequent periods
                             of database interruption during a ship overhaul. Navy personnel used the local
                             area network during the overhaul and transitioned to the ship’s connectivity in
                             February 2014. Approximately 3 days after switching to the ship’s connectivity, the
                             OIS manager was unable to access the database or any functions pertaining to OIS.
                             After repeated calls and e-mails to the OIS helpdesk, an information technology
                             representative was sent to alleviate the problem; however, no progress was made to
                             regain access to the OIS. As of June 4, 2014, the USS Rushmore was provided access
                             to OIS via an Internet portal. This type of connectivity allows personnel to connect
                             when they can obtain an Internet connection. When at sea, this type of connection
                             is not always reliable and may not allow personnel to enter inventory data6
                             in accordance with Navy guidance. The Naval Supply Systems Command
                             Headquarters—the owner of OIS—in conjunction with the Space and Naval Warfare
                             Systems Command—the manager of the network—should ensure that this ship
                             regains OIS connectivity as originally intended.

                         •	 During testing, we identified:

                                       {{   29,621      assets      for     existence       and      24,670        assets      for    completeness,
                                            where ordnance attributes (National Item Identification Number, Navy
                                            Ammunitions Logistic Code, and serial or lot number)7 were not recorded
                                            correctly. See Appendix B for more detail. This occurred because Navy
                                            personnel did not: stencil the attributes back onto assets once they wore
                                            off, update canister attributes when the canister was reused, enter the
                                            correct attribute into OIS, or know attribute information was required.
                                            As a result, Navy personnel relied on inaccurate information used to
                                            differentiate between various performance characteristics and capabilities


           	6	
                 Inventories are performed semi-annually and annually to verify accuracy of ordnance in OIS.
           	7	
                 A unique National Item Identification Number is given to each ordnance asset. The National Item Identification was used to calculate the
                 dollar value of the asset. A Navy Ammunitions Logistic Code identifies ordnance items that are interchangeable. Serial and lot numbers are
                 necessary in tracking and for performing inventory management procedures.




4 │ DODIG-2015-003
                       of different ordnance. Some Navy commands have taken corrective action
                       and recorded attributes on the assets as appropriate. For example, all
                       2,640 assets for existence testing with attribute concerns aboard the
                       USS Carney were corrected.

                  {{   15,063 assets for existence and 3,810 assets for completeness where
                       the storage location of ordnance was not properly recorded in OIS. See
                       Appendix B for more detail. This occurred when Navy personnel who
                       moved ordnance did not communicate storage location changes to the
                       OIS database manager or the OIS database manager entered the storage
                       location incorrectly into OIS. As a result, the current storage location of
                       ordnance was not immediately known, and inventory effectiveness was
                       compromised. Some Navy commands have taken corrective action and
                       adjusted the storage location as appropriate. For example, all 2,396 assets
                       for   existence   testing   with   storage   location   concerns   aboard   the
                       USS San Francisco were corrected.

Improving these internal control processes will help the DON sustain auditable processes for
future financial statement examinations.

This report will be made publicly available pursuant to section 8M, paragraph (b)(1)(A).
of the Inspector General Act of 1978, as amended. However, this report is intended solely
for the information and use of the Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD, and the Assistant Secretary of the Navy (Financial Management and Comptroller)
and is not intended to be used and should not be used by anyone else.




	                                                   Lorin T. Venable, CPA
	                                                   Assistant Inspector General
	                                                   Financial Management and Reporting




                                                                                               DODIG-2015-003 │ 5
                  Appendix A
                  Unmatched Asset Results by Ship (Existence)
                                                            Quantity of       Quantity of
                                     Ship                 Assets Selected   Unmatched Assets
                      USNS Rainier (T-AOE-7)                   3,843                2
                      USS Alaska (SSBN-732)                    4,741                0
                      USS Albany (SSN-753)                     2,338                0
                      USS Anzio (CG-68)                        5,143                2
                      USS Carl Vinson (CVN-70)               125,944            3,524
                      USS Carney (DDG-64)                      5,529                6
                      USS Farragut (DDG-99)                    7,426                6
                      USS Florida (SSGN-728)                   2,994                0
                      USS Helena (SSN-725)                     1,071                0
                      USS John Paul Jones (DDG-53)             6,292                0
                      USS Lake Champlain (CG-57)              66,208                0
                      USS Leyte Gulf (CG-55)                  21,539              150
                      USS Makin Island (LHD-8)               235,123                0
                      USS Maryland (SSBN-738)                  2,452                0
                      USS Newport News (SSN-750)               4,061                0
                      USS Nimitz (CVN-68)                     31,175            4,004
                      USS Rushmore (LSD-47)                   20,608            4,521
                      USS San Francisco (SSN-711)              2,561                2
                      USS Sterett (DDG-104)                   27,110            1,072
                      USS Tennessee (SSBN-734)                 2,364                5
                      USS Winston S. Churchill (DDG-81)        5,880                9
                       Total                                 584,402           13,303




6 │ DODIG-2015-003.
Unmatched Asset Results by Ship (Completeness)
                                        Quantity of                  Quantity of
               Ship                   Assets Selected              Unmatched Assets
USNS Rainier (T-AOE-7)                     6,609                           38
USS Alaska (SSBN-732)                      4,421                            0
USS Albany (SSN-753)                       1,278                            1
USS Anzio (CG-68)                         28,124                           60
USS Carl Vinson (CVN-70)                  36,266                          779
USS Carney (DDG-64)                       14,997                           20
USS Farragut (DDG-99)                      3,284                            0
USS Florida (SSGN-728)                       123                            0
USS Helena (SSN-725)                         242                            0
USS John Paul Jones (DDG-53)              10,464                        1,003
USS Lake Champlain (CG-57)                 2,928                            0
USS Leyte Gulf (CG-55)                     3,216                            2
USS Makin Island (LHD-8)                   3,086                            0
USS Maryland (SSBN-738)                      994                            0
USS Newport News (SSN-750)                 3,230                            0
USS Nimitz (CVN-68)                       29,777                            9
USS Rushmore (LSD-47)               No Testing Performed due to No Connectivity to OIS
USS San Francisco (SSN-711)                3,485                            0
USS Sterett (DDG-104)                     17,685                        1,655
USS Tennessee (SSBN-734)                     776                            0
USS Winston S. Churchill (DDG-81)          7,504                            0
 Total                                   178,489                        3,567




                                                                                         DODIG-2015-003│ 7
                  Appendix B
                  Other Matters of Concern* by Ship (Existence)
                                                                                    Assets with          Assets with
                                                              Quantity of
                                     Ship                                            Attribute            Location
                                                            Assets Selected          Concerns             Concerns
                      USNS Rainier (T-AOE-7)                      3,843                     3                   470
                      USS Alaska (SSBN-732)                       4,741                   126                   100
                      USS Albany (SSN-753)                        2,338                     0                     0
                      USS Anzio (CG-68)                           5,143                     2                   116
                      USS Carl Vinson (CVN-70)                  125,944                 1,143                 6,024
                      USS Carney (DDG-64)                         5,529                 2,640                 1,642
                      USS Farragut (DDG-99)                       7,426                 2,680                     0
                      USS Florida (SSGN-728)                      2,994                     0                 2,960
                      USS Helena (SSN-725)                        1,071                     1                     0
                      USS John Paul Jones (DDG-53)                6,292                 1,027                     0
                      USS Lake Champlain (CG-57)                 66,208                   404                   648
                      USS Leyte Gulf (CG-55)                     21,539                 1,304                   620
                      USS Makin Island (LHD-8)                  235,123                   200                     4
                      USS Maryland (SSBN-738)                     2,452                     0                     0
                      USS Newport News (SSN-750)                  4,061                     0                     0
                      USS Nimitz (CVN-68)                        31,175                   160                    63
                      USS Rushmore (LSD-47)                      20,608                   941                     0
                      USS San Francisco (SSN-711)                 2,561                     2                 2,396
                      USS Sterett (DDG-104)                      27,110                17,270                     0
                      USS Tennessee (SSBN-734)                    2,364                    65                     0
                      USS Winston S. Churchill (DDG-81)           5,880                 1,653                    20
                       Total                                   584,402                 29,621               15,063
                  * Quantity of assets included in other matters of concern results were based on the entire quantity
                    of assets tested. For example, if the recorded number of assets was 500 and we found 250 assets
                    had an attribute concern, all 500 assets were included in other matters of concern due to asset
                    labeling and how the assets are recorded in OIS. Similarly, if 250 assets out of 500 assets selected
                    were stored in an incorrect location, all 500 assets were included in other matters of concern due
                    to how the assets are recorded in OIS.




8 │ DODIG-2015-003.
Other Matters of Concern* by Ship (Completeness)
                                                                  Assets with          Assets with
                                            Quantity of
                 Ship                                              Attribute            Location
                                          Assets Selected          Concerns             Concerns
 USNS Rainier (T-AOE-7)                         6,609                     0                     0
 USS Alaska (SSBN-732)                          4,421                     0                     0
 USS Albany (SSN-753)                           1,278                     0                     0
 USS Anzio (CG-68)                             28,124                    22                   162
 USS Carl Vinson (CVN-70)                      36,266                     1                     2
 USS Carney (DDG-64)                           14,997                10,600                     0
 USS Farragut (DDG-99)                          3,284                     0                     0
 USS Florida (SSGN-728)                           123                     0                   120
 USS Helena (SSN-725)                             242                     1                     0
 USS John Paul Jones (DDG-53)                  10,464                     0                     0
 USS Lake Champlain (CG-57)                     2,928                     1                     0
 USS Leyte Gulf (CG-55)                         3,216                     0                    16
 USS Makin Island (LHD-8)                       3,086                     0                     1
 USS Maryland (SSBN-738)                          994                     0                     0
 USS Newport News (SSN-750)                     3,230                 2,000                     0
 USS Nimitz (CVN-68)                           29,777                    53                    54
 USS Rushmore (LSD-47)                      No Testing Performed due to No Connectivity to OIS
 USS San Francisco (SSN-711)                    3,485                     0                 3,445
 USS Sterett (DDG-104)                         17,685                11,272                    10
 USS Tennessee (SSBN-734)                         776                     0                     0
 USS Winston S. Churchill (DDG-81)              7,504                   720                     0
   Total                                     178,489                 24,670                 3,810
* Quantity of assets included in other matters of concern results were based on the entire quantity
  of assets tested. For example, if the recorded number of assets was 500 and we found 250 assets
  had an attribute concern, all 500 assets were included in other matters of concern due to asset
  labeling and how the assets are recorded in OIS. Similarly, if 250 assets out of 500 assets selected
  were stored in an incorrect location, all 500 assets were included in other matters of concern due
  to how the assets are recorded in OIS.




                                                                                                         DODIG-2015-003│ 9
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
